No.

In The

Supreme Court Of The United States
♦
PATRICIA A. FLOWERS
Petitioner
v.
CONNECTICUT LIGHT AND POWER COMPANY, AKA
NORTHEAST UTILITIES, AKA EVERSOURCE ENERGY
Respondent

♦
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

♦
PETITION FOR A WRIT OF CERTIORARI
WITH APPENDIX

♦
Patricia A. Flowers
Pro Se
76 Cambridge Street
West Hartford, CT 06110
(860) 866-6512

QUESTIONS PRESENTED
1.

Whether Flowers proffered sufficient evidence in support of her prima facie

case of racial discrimination and retaliation claims for a reasonable factfinder to
reject Connecticut Light and Power Company’s, aka Northeast Utilities’, aka
Eversource Energy’s nondiscriminatory explanation for its decisions, adequate to
sustain a finding of liability for intentional discrimination under Title VII of the
Civil Rights Act of 1964, 42 U.S.C. §2000e, et seq, and 42 U.S. Code § 1981.
2.

Whether the Second Circuit Court of Appeals, as a matter of law, used the

correct standard of review in its’ review of the District Court’s summary judgement
decision.
3.

Whether the Second Circuit Court of Appeals, as a matter of law, violated

Rule 56(A) of the Federal Rules of Civil Procedure and sanctioned the District
Court’s violation of Rule 56(A) of the Federal Rules of Civil Procedure.
4.

Whether the Second Circuit Court of Appeals (Second Circuit)should have

allowed Flowers to amend her pleadings to add a retaliation claim that grew out of
her racial discrimination complaint filed with the Equal Employment Opportunity
Commission.

ii

PARTIES TO THE PROCEEDINGS
The caption contains the names of all of the parties to the proceedings.

iii

TABLE OF CONTENTS
Questions Presented
Parties to the Proceedings
Table of Contents

l

n
m

Table of Authorities

,v

Petition for A Writ of Certiorari

1

Opinions Below

1

Jurisdiction

2

Statutory Provisions Involved

2

Introduction

3

Procedural Facts

3

Statement of The Case

5

District Court Decision

16

Second Circuit Court of Appeal Decision

17

Reason for Granting Petition

19

A.

The Second Circuit Court of Appeal Erred, as a Matter of Law, in Its

Assessment of the Facts and Evidence in This Instant
Case

19

iv

B.

The Second Circuit Court of Appeal’s Decision, as a Matter of Law, Violates

Rule 56 (A) of the Federal Rules of Civil Procedure
C.

31

The Second Circuit Court of Appeal’s Declines Petitioner’s

Request to Amend Complaint

31

Conclusion

32

Appendices
Second Circuit Court of Appeal Decision

la

District Court Decision

7a

Denial of Petition for Panel Rehearing and Rehearing en banc

43a

TABLE OF AUTHORITIES
Adickes v. S.H. Kress & Co.,
398 U.S. 144, 157 (1970)..

Anderson v. Liberty Lobby, Inc.,
477 U.S. 248 1986)..................

31

24, 31

Burlington N. & Santa Fe Ry. v. White
548 U.S. 53 (2006)................................

29

Foman v. Davis. 371 U.S. 178 (1962)

32

Matsushita v. Zenith Ratio Corp.
475 U.S. 574 (1986)...................

20

McDonnell Douglas Corp. v. Green,
411 US 804 (1973).......................

30

National Railroad Passenger Corporation v. Morgan, 536U.S. 101
(2002).......................................................................................................

25

Reeves V. Sanderson Plumbing Products, Inc.
530 U.S. 133 (2000)........................................
Sassaman v. Gamache
566 F. 3d 315,(2nd Circuit 2009)

20, 28

30

Staub v. Proctor Hosp.,
131 S. Ct. 1186 (2011)

26

vi

United States v. Diebold,
369 U.S. 654 (1962)......

19

University of Texas S. W. Med. Ctr. v. Nassar
570 US 338, (2013)........................................

27

Walsh v. NYC. Hous. Auth.,
828 F.3d 70, 74 (2d Cir. 2016)

20

STATUES AND RULES
28 U.S.C. § 1254(1)

2

42 U.S. Code § 1981

2,4

42 U.S. Code § 1981a

2,4

42 U.S.C. §2000e-2, et seq

2,4

42 U.S.C. § 2000e-3

2

Fed. R. Civ. P. 56(A)

31

Fed. R. Civ. P. 56(0

22

Supreme Court Rule 10(a)

19

OTHER AUTHORITES
Black’s Law Dictionary
679 9th ed. 2009
6 Wright, Federal Practice & Procedure

20, 22, 29

vii

§ 1476, at 556-57 (2nd ed. 1990 & Supp. 2001)

5

10a Charles Alan Wright, et al., Federal Practice and Procedure §§ 2722, at 382-84
(3d ed. 1998)

22

1

PETITION FOR A WRIT OF CERTIORARI
Patricia A. Flowers respectfully petition
for a writ of certiorari to review the decision
of the United States Court of Appeals for
the Second Circuit in the summary judgement procedure below.
OPINIONS BELOW
The Second Circuit Court of Appeal’s decision reported at LI | No. 18-2415‘CV. |
20190529117 is reproduced in the Appendix (“App.”) at la-6a. The District Court’s
decision is reproduced at App. 7a-42a. The Second Circuit’s denial for a panel
rehearing and rehearing en banc is reproduced at App. 43a

2

JURISDICTION
The decision of the Second Circuit Court of Appeals was entered on May 29, 2019.
A petition for a panel rehearing and rehearing en banc was denied on July 23, 2019
This Court has jurisdiction pursuant to 28 U.S.C. § 1254(1)
STATUTORY PROVISIONS
42 U.S.C.§2000e-2 et seq., provides in relevant part, It shall be an unlawful
employment practice for an employer.(l)... to discriminate against any
individual with respect to h[er] compensation, terms, conditions, or privileges
of employment, because of such individual’s race, color,.... to limit... deprive
or tend to deprive any individual of employment opportunities or otherwise
adversely affect h[er[ status as an employee, because of such individual’s
race, color...,” [section 703]

42 U.S. Code § 2000e-3 provides in relevant part It shall be an unlawful
employment practice for an employer to discriminate against any of his
employees or applicants for employment,..., because [s]he has opposed any
practice made an [s]he has made a charge,..., or participated in any manner
in an investigation, proceeding, or hearing under Sec. 2000e3. [Section 704]

42 U.S. Code § 1981 provides in relevant part, [a]ll persons within the
jurisdiction of the United States shall have the same right in every State and
Territory to make and enforce contracts, to sue, be parties, give evidence, and
to the full and equal benefit of all laws and proceedings for the security of
persons and property as is enjoyed by white citizens,....

42 U.S. Code § 1981a provides in relevant part, [i]n an action brought by a
complaining party... against a respondent who engaged in unlawful
intentional discrimination ...(prohibited under section 703, 704,... of the Act
[42 U.S.C. 2000e-2, 2000e-3,...], and provided that the complaining party
cannot recover under section 1981 of this title, the complaining party may
recover compensatory and punitive damages as allowed in subsection (b), in
addition to any relief authorized by section 706(g) of the Civil Rights Act of
1964, from the respondent.

3

D INTRODUCTION
Patricia Flowers (Flowers) is an African American woman who filed a
Complaint with the District Court of Connecticut charging that 1) Eversource
discriminated against her in failing to promote her from the position of Associate
Analyst to that of Analyst in 2013; 2) Eversource retaliated against Flowers for
filing an internal racial discrimination complaint.
The District Court awarded summary judgement to Eversource on all
Flowers’ Claims. Flowers appealed the District Court’s decision to the Second
Circuit Court of Appeals.
On May 29, 2019 the Second Circuit Court of Appeals (Second Circuit) issued
a panel decision affirming the District Courts decision to grant summary judgement
to Connecticut Light and Power Company, aka Northeast Utilities, aka Eversource
Energy [hereinafter Eversource] on Flowers’ failure to promote cause of action and
ensuing retaliation claims all of which are addressed below.
The Court should grant Flowers’ petition because the Second Circuit’s
decision is “manifestly” unjust.
ID PROCEDURAL FACTS
As an initial matter, to avoid confusion, there are two District Court
Complaints and two oppositions to summary judgement in the record. The District
Court appears to have confused the Complaints in its review of Eversource’s
summary judgement motion. Pet. App. 14a, 30a.

4

For example, on May 24, 2014 pursuant to Title VII of the Civil Rights Act of
1964, 42 U.S.C. §2000e, et seq, Flowers filed pro se with the Equal Employment
Opportunity Commission (EEOC) a charge against Eversource for retaliating
against her for filing an internal racial discrimination complaint. The internal
complaint was predicated on Eversource’s failure to promote Flowers’ in 2013 to an
Analyst position in its Transmission Reliability Compliance department (Reliability
Compliance department) because of her race and color.
The three retaliation charges alleged in the EEOC complaint were 1)
threatening while under protective activity! 2) lack of a thorough investigation of
Flowers’ internal complaint (inadequate investigation) and 3) an unfavorable job
performance evaluation performed by Flowers’ supervisor in 2013.
On February 5, 2015, the EEOC issued a right to sue letter and...” [Flowers]
filed the Complaint in this action on April 10, 2015... [Flowers] submits a cause of
action for failure to promote... (emp. added)
is in correct.
Flowers retained counsel in July of 2015. Flowers’ counsel amended her
complaint to add a failure to promote cause of action under Title 42 U.S.C. § 1981
and 42 U.S.C. §1981a and to add Flowers’ retaliation claims under Title 42 U.S.C. §
1981 and 42 U.S.C. §1981a. Accordingly, the failure to promote cause of action is
pleaded in the Amended Complaint which was filed with the District Court on
August 11, 2015.

5

Since “[t]he general rule is that an amended pleading supersedes the original and
remains in effect, unless again modified, from that point forward”( 6 Wright,
Federal Practice & Procedure § 1476, at 556‘57 2nd ed. 1990 & Supp. 2001), the
Amended Complaint is the active complaint in this instant case.
Flowers filed pro se with the District Court on December 27, 2016 and
requested through several motions to be allowed to present evidence not presented
by her former counsel in order to support allegations made in the Amended
Complaint. At a hearing held on January 24, 2017 the District Court granted
Flowers permission to file a substituted opposition to summary judgement.
On February 14, 2017 Flowers filed pro se a substituted opposition to
summary judgement supported with a preponderance of evidence supporting all of
the factual allegations made in the following case. The substituted opposition to
summary judgement is the active opposition.
Ill)

STATEMENT OF THE CASE

• Background Facts and Issues
From January 2008 through April 2009 Flowers successfully worked as a
contractor in Eversource’s Transmission Construction and Maintenance
department. Flowers was initially contracted to work as an office assistant however
in less than a years’ time she was promoted to an analyst position in the
Transmission Construction and Maintenance department.

6

On September 21, 2009, Eversource hired Flowers as a permanent employee
to the position of Associate Analyst in its Reliability Compliance department. Karl
Tammar (Tammar) was the hiring manager for the Reliability Compliance
department at the time.
Under Tammar’s supervision Flowers was immediately assigned senior-level
work within two months of her hire and received excellent two and five-months
performance evaluations. Flowers also received the 2009 annual raise under
Tammar’s supervision. Tammar left the company in October of 2010 and
subsequently did not prepare Flower’s 2010 job performance evaluation.
William Temple (Temple) replaced Tammar as acting manager in late
October of 2010 and became the official manager of the Reliability Compliance
department in December of 2010.
Record evidence shows immediately after coming under Temple’s supervision,
Temple initiated an ethnic conversation with Flowers about his Japanese heritage.
During this conversation Temple informed Flowers that his mother told him and his
siblings they should marry “white” people in order to get ahead. Pet. App. 9a.
In December of 2010 Temple called Flowers into his office to discuss her 2010
job performance evaluation. Temple informed Flowers during this discussion he
had rated her a “2, one up from the bottom" and that he was not recommending her
for the annual 2010 raise. Record evidence shows Flowers did not receive the 2010
annual raise.

7

In addition, in December of 2010, record evidence shows Temple reduced
Flowers job responsibilities from the senior-level work she was performing under
Tammar’s supervision (e.g. compliance audit preparations, policy analysis, etc.) to
primarily working with Eversource’s Web-based Corrective Action Tracking System
(CATSWeb), a company-wide system Eversource uses to track its compliance with
regulatory entities’ reliability standards.
Temple admits in his deposition testimony he did not review Flowers’
performance evaluations prepared by Tammar before rating her a “2, one up from
the bottom" and denying Flowers the 2010 annual raise. Temple also admits in his
deposition testimony he had very little interaction with Flowers since Flowers’
hiring date in September of 2009.
In March of 2011 record evidence shows Flowers complained about Temple’s
treatment of her to Deborah Ferringo, Human Resource Business Partner and
Dwayne Basler (Basler), Temple’s supervisor from October 2010 until 2014.
Flowers requested of Basler to be removed from under Temple’s supervision so
“[Temple] would not have the power to discriminate against [her] again.” Record
evidence shows Basler refused to move Flowers from under Temple’s supervision
and refused to “chang[e] [Flowers’] overall job performance rating or merit pay
adjustment for 2010.”

8

• Undue Scrutiny
Record evidence shows beginning in October 2010 while Temple was acting
manager through 2013 Temple covertly recorded notes on Flowers which focused on
a host of accusations regarding, inter alia, Flowers work performance, interactions
with coworkers and unfounded libelous allegations. Flowers gained access to the
notes by way of Eversource’s discovery materials. The notes show as early as
January 21, 2011, the day after Temple signed-off on Flowers’ 2010 job performance
evaluation (January 20, 2011) Temple was premeditating a success plan (e.g. type of
performance improvement plan) for Flowers.
• Failure to Promote to Analyst Position In 2013
In April of 2013 Eversource posted an opening for an Analyst position in the
Reliability Compliance department. Flowers informed Temple she was going to
apply for the position. Temple informed Flowers he would not be interviewing
Flowers for the position because he was tired of managers complaining to him about
Flowers’ work performance. Temple’s deposition testimony on this matter is dubious
at best.
When Temple was being deposed by Flowers’ former counsel he was asked in
several instances about critical comments he made in Flowers job performance
reviews from 2010 through 2013-what of Flowers work performance was he
referring to. Temple admitted each time he was referring to Flowers’ work
performance with Eversource’s CATSWeb tracking system.

9

• Disparate Treatment
Flowers alleged she was treated disparately in Eversource’s 2013 promotional
decision because two of her Caucasian co-workers in the Reliability Compliance
department, Wyran Feil (Feil) and Mark Kenny (Kenny), made more similar and
substantial alleged errors in the CATSWeb tracking system than Temple alleged
Flowers had made, yet both Feil and Kenny were promoted to supervisor positions
at Eversource. Pet. App. 26a_28a
• New Hire
After formerly applying for the Analyst position Flowers received from
Eversource’s human resource staff the response, ineligible for the posting.
Suzanne Black (Black) who is Caucasian was hired to the Analyst position in
the Reliability Compliance department. Pet. App. 10a. Once hired, Black primarily
worked within Eversource’s Critical Infrastructure Program (CIP) where record
evidence shows Flowers successfully worked for two years with CIP Manager,
Michael Puscas. Black was qualified for the Analyst position and being hired to the
position was a lateral move for Black from another department in Eversource.
However, Black was hired after Temple refused to interview Flowers for the Analyst
position before the interviewing process started and after Flowers formally applied
for the position--a timeframe in which the Analyst position remained opened and
candidates with Flowers’ qualifications were still being sought.

10

Eversource’s non-discriminatory reason for its 2013 promotional decision
was that “[Flowers’] performance was “substandard and erratic,” up until 2012
rendering her unqualified to serve as an analyst.” Pet. App. 4a, 23a. However,
Temple admitted in his deposition testimony “[he] does not believe he told [Flowers]
she was unqualified for the position.” Pet. App. 10a. He did not.
Retaliation Claims
• Inadequate Investigation of Internal Complaint
On August 15, 2013 Flowers filed a racial discrimination complaint through
Eversource’s internal discrimination and harassment complaint system known as
the Beacon Line. Flowers’ internal complaint alleged, inter alia, she was refused
the promotion to the Analyst position in the Reliability Compliance department
because of her race and color and that her email account had been “spoofed” (e.g.
hacked) by Temple. Eversource’s Information Technology policy defines “spoofing”
as “u]sing another [u]ser’s email account without authorization or without
disclosing [their] identity or sending an email message under another person’s
name).” Denise Nadeau (Nadeau), Eversource’s Program Manager for Employee
Relations investigated Flowers’ internal complaint.
On September 11, 2013 Nadeau met with Flowers to inform Flowers there
was not sufficient evidence to prove Temple had racially discriminated against her.
Record evidence shows Nadeau spent 20 hours (two and a half workdays)
conducting the investigation, notwithstanding Nadeau admitted in an EEOC

11

affidavit Flowers’ allegations were numerous which made the investigation
comp heated.
Nadeau interviewed six Eversource employees (favorable to Temple) who
included Temple (the alleged offender), Basler, Temple’s supervisor from 2010
through 2014, Boguslaw (aka Bob) Ciurylo,(Ciurylo) Information Technology (IT)
Security manager and three other employees, two who blatantly lied during their
interview. Nadeau did not provide Flowers an opportunity for rebuttal after
interviewing these employees. Nadeau ended the internal investigation
prematurely on October 29, 2013 after threatening Flowers with harassment
charges for engaging in the internal investigation of Flowers email “spoofing”
incident and while Flowers was under protective activity.
Eversource’s non-retaliatory statement for Flowers’ inadequate investigation
assertion is that Eversource conducted a thorough investigation.
• Threatening While Under Protective Activity
Flowers alleged in close proximity to the rejection of her 2013 application for
the Analyst position (April 16, 2013), on May 24, 2013 Temple accused Flowers of
erroneously sending an email to a Duong Le at Northeast Power Coordinating
Council (NPCC) that was meant to be sent to Temple only. Record evidence shows
a discrepancy in time-stamp dates on the sent, reply and forwarded emails between
Temple, Duong Le and Flowers. Because of this discrepancy coupled with the fact
Flowers did not know of a Duong Le (Le) at NPCC, Flowers alleged Temple

12

manipulated the email so that it appeared the email sent to Le was sent by Flowers
from her personal company email account. Flowers alleged Temple manipulated
the email then blamed her for inter aha the email error to justify his rejecting her
for the Analyst position and subsequently to fulfill his 2011 premeditated plan to
place Flowers on a success plan.
On September 19, 2013 Nadeau met with Flowers and provided Flowers with
a note from the IT Security department with instructions on who to contact
regarding the email “spoofing” allegation. Ciurylo was the IT Security contact.
On September 20, 2013 Flowers met with Ciurylo. Ciurylo informed Flowers
he would look into the email “spoofing” complaint.
Record evidence shows, on October 4, 2013, Nadeau wrote in followup notes
she sent to Basler, Temple’s supervisor, Deborah Ferringo, Human Resource
Business Partner, Marianna Emanuelson (Emanuelson), Lead Human Resource
Business Partner, and Anne Taveras, Manager for Employee Relations regarding
Flowers’ involvement in the email “spoofing” investigation,
“u]pon my return from vacation, I received a voicemail from Bob Ciurylo, DirectorIT Security. Pat [Flowers] went to Bob about the email to Mr. Le again. Bob
provided me with copies of his investigation, and we agreed he would close his
investigation out with Pat.” I notified Marianna of this event. Record evidence
shows Nadeau’s followup notes were an act of willful mendaciousness.

13

On October 21, 2013 record evidence shows Ciurylo sent an email to Flowers
and provided Flowers with information he had obtained from his investigation of
the alleged email “spoofing”. In the email Ciurylo informed Flowers “[i]f you would
like to discuss this topic further give me a call.” (emp. added). Record evidence
shows in a written report on the email spoofing investigation prepared by Ciurylo
(CIS Report), Ciurylo documented the timeline of the investigation and the results
of his findings. The report notes Ciurylo met with Flowers on September 20, 2013
and Ciurylo continued to follow-up with Flowers up until October 21, 2013.
The CIS report documents critical material facts that supports Flowers
assertion she was threatened by Nadeau while engaging in and under protective
activity and Flowers assertion Nadeau conducted an inadequate internal
investigation^
a) Based on the contents of Pat's e-mail, she believed someone added Duong
Le to the distribution list because the sending date and time was 5/23/13
04:05 PM while Bill Temple's forward of that same e-mail on 5/25/13 had the
sending time as 04:06 PM.
b) The printout of the e-mail showed in the forwarded header detail from Bill
on 5/24/13 that it was sent on 04:05:36 PM. (emp. added) (there are other
emails Ciurylo does not mention in his report that shows a clearer picture of
the discrepancy in the emails).
c) It is possible that the Duong Le reply was fabricated by Bill Temple, until
we receive positive external confirmation, (emp. added)
d) Since original e-mails could not be produced, I did inform Pat [Flowers]
that the contents of forwarded e-mails can be easily modified, e mail headers
as well as content, with no technical proficiency required, (emp. added)
e) Reviewed above conclusion and supporting evidence with Denise Nadeau
and she recommended I close this investigation. She will be reviewing these
results with Marianna C. Emanuelson, HR Business Partner for
Transmission, (emp. added)

14

The last date on the CIS report is October 21, 2013.
On October 29, 2013 Nadeau and Emanuelson met with Flowers to discuss
Flowers’ communications with Ciurylo. Flowers alleged at the October 29, 2013
meeting Nadeau threatened Flowers with harassment charges if she continued to
contact Ciurylo regarding the alleged email “spoofing”. Flowers did not contact
Ciurylo again out of fear of being charged with harassment which could have
resulted in the termination of her job.
Eversource’s non-retaliatory reason for the October 29, 2013 meeting was to
inform Flowers Ciurylo had investigated Flowers’ email “spoofing
assertion twice and “Mr. Ciurylo’s team would not continue to investigate the same
issue again and again...” Pet. App. 5a, 33a
•

Illegal Cover'Up and Concealment of Material Facts
Record evidence shows on November 5, 2014 in violation of 18 U.S.C. § 1519

under Title 18 of the Crimes and Criminal Procedures Act, Nadeau, Emanuelson
and Ciurylo engaged in a cover-up of its adverse actions perpetrated on Flowers
(e.g. threatening, inadequate internal investigation) by concealing material facts in
affidavits submitted to the EEOC regarding the implied probability in the CIS
report of Temple’s culpability in the email “spoofing” incident. The affiants also
made misleading statements in their affidavits that are inconsistent with facts in
the CIS report.

Notwithstanding the CIS report or the affiant’s EEOC affidavits,

Eversource listed the email “spoofing” investigation in its Local Rule 56(a)!

15

statement as a material fact not in dispute, citing Ciurylo’s EEOC affidavit without
any citation to the CIS report. (Ciurylo omitted the critical material facts
aforementioned in his EEOC affidavit). In Flowers’ initial Local Rule 56(a)2
statement prepared by her former counsel, Flowers’ former counsel admitted to
Eversource’s assertion that the email “spoofing” investigation was not in dispute
without controverting by use of, inter alia the material facts in the CIS report. All
parties and counsels were in possession of the CIS report and November 5, 2014
EEOC affidavits and other evidence in regard to this matter (e.g. Nadeau’s October
4, 2013 follow up notes, Flowers’ Temple’s and Le’s emails).
Eversource did not dispute this assertion of an illegal cover up of its adverse
actions by concealing material facts in its EEOC affidavits.
• Second Failure to Promote In 2016
In or around March of 2016 Eversource posted an opening for a Senior NERC
Specialist (Senior Analyst) position in the Reliability Compliance department.
While the Analyst position Flowers applied to in 2013 had become vacant in and
around 2015 and remained vacant when Eversource posted the Senior Analyst
position, Eversource did not post an Analyst position at this time.
Flowers applied to the Senior Analyst position in March of 2016. Flowers’
2014 and 2015 job performance evaluations were exceptionally positive. Flowers
had performed senior level work under Tammar’s supervision and was performing
some senior level work when she applied for the Senior Analyst position. Record

16

evidence shows, on August 1, 2016, on the eve Flowers was to give deposition
testimony regarding this instant case to Eversource’s legal department (August 2,
2016), Flowers’ then current supervisor Kenny met with her to inform her
Eversource’s human resource department would not be considering her application
for the Senior Analyst position because “[Temple] gave her a bad 2013 job
performance review.”
Eversource argued that during this meeting Kenny offered to help Flowers
get promoted to the Analyst position.
Flowers resigned from the Associate Analyst position on September 26, 2016.
Eversource moved for summary judgment several hours later.
IV)

DISTRICT COURT DECISION
On September 29, 2017 the District Court granted summary judgement

favorable to Eversource on all Flowers claims. The District Court predicated its
decision on the following grounds:
[Flowers] offers no evidence which raises a question of fact as to whether
[Eversource] reason for not promoting her was mere pretext for
discrimination. Pet. App. 19a, 27a
Flowers offered insufficient evidence and conclusory statements to show she
was subjected to racial animus beginning in 2010. [Flowers] deposition
testimony on this matter is “self-serving testimony,” “speculative, and
“subjective.” Pet. App. 25a 26a
Flowers] offers no evidence of her Caucasian co-workers’ errors who were
treated more favorable than her in Eversource’s promotional decisions or
evidence to show she was similarly situated to the co-workers to who she
compared herself. [Flowers] deposition testimony on this matter is “is solely
based on her speculative belief.” Pet. App. 26a

17

[Flowers] offers incomprehensible evidence to show co-workers’ errors. Pet.
App. 27a at fn. 4

Retaliation Claim-Threatening
[Flowers] has not established a prima facie case that [Eversource] retaliated
against her when Nadeau notified [Flowers] she was borderline harassing
someone in the IT department over her email account. Pet. App. 31a -35a
[Flowers] offers no evidence that she was accused of harassment.... Pet. App.
31a-35a
[Flowers] has not offered evidence that the Nadeau’s threat was causally
connected to [Flowers’ internal] complaint. Pet. App. 3la-35a
Flowers] cites no evidence [aside from her own “conclusory allegations in her
deposition and EEOC complaint] to show the pretext of [Eversource’s] nonretaliatory reason for the October 29, 2013 meeting. Pet. App.31a 35a
Flowers] has not made a showing that Nadeau’s [threat] was a “materially
adverse action Pet. App.31a-35a.

• Retaliation: Inadequate Investigation/ Failure to Promote in 2016
Flowers retaliation claims of an inadequate investigation and 2016 failure to
promote claim will not be considered on the grounds they were not presented
in her Complaint and may not be alleged for the first time in her Opposition
to Summary Judgment. Pet. App. 31a at fn.5

V)

SECOND CIRCUIT DECISION
On July 23, 2019 the Second Circuit affirmed the District Court’s decision to

grant summary judgement favorable to Eversource. The Second Circuit reasoned its
decision on the following:
•

Failure to Promote Cause of Action
Even assuming that Flowers has established a prima facie case of race-based
discrimination, we agree with the district court that she has failed to produce

18

sufficient evidence that the failure to promote her was motivated by
discriminatory animus rather than by Eversource’s stated motivations....
Flowers, for her part, has failed to offer sufficient evidence of pretext. Pet.
App. 4a
• Retaliation Threatening
... [Elven assuming that Flowers has established a prima-facie showing of
retaliation, Eversource has offered ample evidence of legitimate, nonretaliatory reasons for the allegedly adverse actions taken toward Flowers
following her filing of the complaint. Yet Flowers has failed to provide
sufficient evidence that these actions were instead motivated by
discriminatory animus. Pet. App. 5a
• Retaliation Claims: Inadequate Investigation/ Failure to promote in 2016
Flowers argues that the district court erred in declining to consider her two
additional allegations of retaliation: Eversource’s alleged inadequate
investigation of her internal discrimination complaint and its refusal to
promote her for a second time in 2016. Flowers, however, asserted these
claims for the first time in her opposition to summary judgment, and the
district court therefore properly declined to consider them. Pet. App. 5a

The Second Circuit declined to consider Flowers assertions “her supervisor
subjected her to disparate treatment based on her race beginning in 2010” and that
“Eversource engaged in an illegal coverup of its wrongdoing by omitting information
from affidavits submitted to the [EEOC]” on the grounds these claims were
allegedly presented for the first-time on appeal. Pet. App. 6a at fn.l.
The Second Circuit also declined to grant Flowers permission to amend her
complaint to add Eversource’s 2016 retaliatory promotional decision infra. Pet. App.
6a at fn. 1.

19

VI)

REASON FOR GRANTING THE PETITION
Pursuant to Supreme Court Rule 10(a), Flowers request the “exercise” of the

Court’s supervisory power on a decision entered by the Second Circuit that has so
far departed from the accepted and usual course of judicial [summary judgement]
proceedings, [and] sanctioned such a departure by [the District Court] as to call for
an exercise of this Court's supervisory power.” Supreme Court Rule (10a).
The Second Circuit, as a matter of law, erroneously assessed Flowers’
evidence supporting her prima facie cases of racial discrimination and retaliation,
by 1) viewing the facts of the case and evidentiary facts in light favorable to
Eversource, 2); construing evidence in light favorable to Eversource; 3) disregarding
critical evidence that undermines Eversource’s stated reasons for its adverse actions
taken against Flowers; 4) reviewing the evidence in piecemeal fashion,' 5) neglecting
to review the whole record on appeal.
A. The Second Circuit Erred as a Matter of Law, in Its Assessment of the Facts
and Evidence in This Case
First, the Second Circuit erred in its assessment of Flowers’ evidence and by
its affirmance of the District Court’s decision sanctioned the District Court’s doing
of the same, by viewing the facts in the record in light favorable to Eversource.
Accordingly, the Second Circuit and the District Court drew inferences from these
facts favorable to Eversource as well, notwithstanding the Court’s holding in,
United States v. Diebold, Inc, that “[i]n evaluating a motion for summary

20

judgment, a district court should consider the facts in the light most favorable to the
non-moving party and draw all reasonable inferences from those facts in favor of
that party.”) Diebold, Inc., 369 US 654 (1962).
Second, the Second Circuit totally disregarded and sanctioned the District
Court’s disregarding of over 25 pieces of critical evidence Flowers proffered to show
the pretext of Eversource’s stated reasons for its adverse actions taken toward her
infra. The disregarded evidence does not include CATSWeb documents, evidence
that coexists within the fact ( Black’s Law Dictionary defines this type of evidence
as “fact-in-evidence” or “evidentiary fact” which “constitutes as evidence.” ) or
deposition testimony infra. Again, the Second Circuit departed from the Courts’
holding in Reeves v. Sanderson, “in entertaining a motion for judgment as a matter
of law, the court should review all of the evidence in the record” Reeves 530 U.S.
133 (2000).
Third, the Second Circuit erred and sanctioned the District Court’s erring in
viewing the evidence in piecemeal fashion rather than as a whole. While the
Second Circuit held in Walsh v. New York City Housing Authority “[a] plaintiffs
evidence at the third step of the McDonnell Douglas analysis must be viewed as a
whole rather than in a piecemeal fashion.” Walsh, 828 F.3d 70 ( 2nd Cir.
2016)(citations omitted), the Second Circuit made an arbitrary decision to depart
from its holding in this instant case. In Matsushita v. Zenith Radio Corp, the Court
held, “[wlhere the record, taken as a whole, could not lead a rational trier of fact to

21

find for the nonmoving party, there is no "genuine issue for trial." Matsushita, 475
U.S. 574 (1986). This is not the case here.
When all the facts, evidentiary facts and other evidence in the record are
viewed and construed as a whole in a light favorable to Flowers, and all reasonable
inferences are drawn in her favor, the record shows not only are there material
issues of facts in dispute so to have precluded summary judgement, but that there is
sufficient evidence, including Flowers’ deposition testimony, supporting Flowers’
prima facie case of racial discrimination and retaliation claims so to sustain a jury
finding of liability for intentional discrimination perpetrated on Flowers by
Eversource.
The Sufficiency of the’ Evidence
• Deposition Testimony
As an initial matter, Flowers’ rejects the District Court’s characterization of
her deposition testimony as self-serving testimony,” “speculative, and “subjective”
which is summarily concluding Flowers’ deposition testimony is mere conclusory
statements. Pet. App. 25a_28a, 37a
While the Second Circuit did not specifically state Flowers’ deposition
testimony is comprised of conclusory statements, nevertheless, the Second Circuit
disregarded evidence in Flowers’ deposition testimony relevant to her claims and in
its affirmance of the District Court’s decision sanctioned the District Court’s
characterization of Flowers’ deposition as such.

22

Fed. R. Civ. P. 56(C)(1)(A) specifically permits a party to support its factual
assertions by means of deposition testimony. Black’s Law Dictionary defines
deposition testimony as “testimony evidence.” (Black's Law Dictionary 678 (9th
ed. 2009). Charles Alan Wright, stated in Federal Practice and Procedure,
“[blecause a deposition is taken under oath and the deponent’s responses are
relatively spontaneous, it is one of the best forms of evidence for supporting or
opposing a summary'judgment motion” (emp. added). (10a Charles Alan Wright, et
al., Federal Practice and Procedure §§ 2722, at 382-84 (3d Ed. 1998))
Hence, rather than conclusory statements, first, Flowers deposition
testimony is evidence given in support of the pleadings in the Amended Complaint,
including her disparate treatment claim Pet. App. 6a at fn.l and assertion of
Eversource’s retaliatory inadequate internal investigation Pet. App. 5a, 6a at fn.l,
31a at fii.5. As a matter of fact, Eversource disputed these two claims in its
November 5, 2014 EEOC rebuttal statement and in its response to the Amended
Complaint via its Affirmative Defenses filed with the District Court on September
10, 2015. Eversource’ continued to dispute these two claims up until March 6, 2017
in its reply to Flowers’ substituted opposition.
Second, Flowers’ deposition testimony attests to the adverse action she was
subjected to by Eversource’s 2016 promotional decision (second failure to promote)
Pet App. 5a, 6a at fn.l, 31a at fn.5^
Q. I’m just looking at your complaint, and

I'm not seeing that you are

alleging damage because of a performance review.

23

A. To answer this, I can allege damage as of yesterday.
Q. Okay. Well, there is nothing in your complaint about it.
A. It just happened yesterday.
Flowers goes on in her testimony to explain her 2016 application to the Senior
Analyst position however the questioning deflected to other matters.
Consequently, the Second Circuit erred in its conclusion that Flowers’
assertions of a retaliatory inadequate internal investigation and that Eversource’s
2016 retaliatory promotional decision were presented for the first time in her
substituted opposition to summary judgement. Pet. App. 5a Likewise, the Second
Circuit erred in concluding Flowers’ disparate treatment claim was presented for
the first time on appeal. Pet. App. 6a at fn.l.
The Second Circuit also erred in its’ conclusion that Flowers’ assertion of
Eversource’s illegal cover-up of its adverse action taken towards Flowers was
presented for the first time on appeal. Pet. App. 6a at fn.l. Flowers filed this
assertion with the District Court on October 25, 2017 in response to Eversource’s
objection to Flowers’ motion for reconsideration of the District Court’s summary
judgement decision.
Flowers’ deposition testimony, which is extensive, has been undermined as
sworn evidentiary testimony not only by the District Court and affirmed by the
Second Circuit, but by Eversource as well.

24

In Eversource’s December 6, 2016 reply to Flowers’ opposition to summary
judgement prepared by Flowers’ former counsel, Eversource argued,
[Flowers’] characterizations of Nadeau as “reprimanding” and even
“threatening” are not backed up with identification of any offensive language
or any other objective facts. [Flowers] identifies only her own deposition
testimony as evidence, and no facts substantiate [Flowers’] hyperbole.
This was true in the opposition to summary judgement prepared by Flowers’ former
counsel. However, Eversource argued again in its March 6, 2017 reply to Flowers
substituted opposition
Flowers] argued to this Court on January 24, 2017 that she should be given a
second opportunity to object to the Eversource Motion because she needed to
provide evidence to back up statements in her deposition transcript that her
attorney had not presented.
It should be noted, that in the 2d Opposition, [Flowers] cites, again, to the
transcript of her own deposition, with no support other than self-serving
documents of her own creation (emp. added).
Eversource’s March 6, 2017 argument is simply not true.
Flowers’ substituted opposition cites to a preponderance of material evidence
in the record that supports every factual allegation she attested to in her deposition
testimony. Approximately seventy-five percent of this record evidence Flowers
offered in support of her claims was adduced in Eversource’s discovery materials
labeled and paginated accordingly. Flowers received this evidence as early as April
of 2016, if not earlier. In Anderson the Court held, “...the plaintiff must present
affirmative evidence in order to defeat a properly supported motion for summary
judgment. This is true even where the evidence is likely to be within the possession

25

of the defendant, as long as the plaintiff has had a full opportunity to conduct
discovery. Anderson, All U.S. 257 (1986).
Other of Flowers relevant evidence was downloaded from electronically
stored information systems belonging to Eversource of which the contents cannot be
altered offline (e.g. CATSWeb documents, payroll stubs, etc.).
• Temple’s Deposition Testimony
By allowing the District Court to characterize Flowers’ deposition testimony
as conclusory statements, the Second Circuit gives permission for the District Court
to characterize Temple’s deposition testimony (which the District Court and
Eversource disregarded almost in its entirety) as conclusory statements as well.
The Second Circuit disregarded critical evidence in Temple’s deposition
testimony that 1) corroborates Flowers testimony that she was subjected to racial
animas and discrimination as early as 2010; 2) mentions his scrutiny notes that
contributes to the nexus of racial animus leading to his decision not to interview
Flowers for the Analyst position in 2013; 3) gives support to Flowers disparate
treatment claim that her Caucasian co-workers were treated more favorably in
Eversource’s promotional decisions; 4) corroborates Flowers’ testimony she was
qualified for the Analyst position and 5) shows inconsistencies in Eversource’s nondiscriminatory reason for its 2013 promotional decision. The Court held in National
Railroad Passenger Corporation v. Morgan, “[Title VII does not] bar an employee

26

from using the prior acts as background evidence in support of a timely claim.
National Railroad Passenger Corporation, 536 U.S. 101 (2002).
Temple’s deposition testimony also attests to Eversource’s human resource
department’s role as the decision maker in promotional decisions" the department
who made the ultimate decision to reject Flowers 2016 application for the Senior
Analyst position. The application was rejected specifically based on Flowers’
retaliatory job performance review Temple conducted in 2013, notwithstanding
Flowers’ 2014 and 2015 job performance evaluations were exceptionally positive.
Moreover, Eversource’s human resource department had approved Flowers’
Caucasian coworkers’ applications for promotion despite their errors. As the
ultimate decision maker in Flowers’ application for the Senior Analyst position in
2016, the motivating factor (e.g. racial animus) that motivated Temple to write an
unfavorable job performance review and which caused an adverse action becomes
the motivating factor in Eversource’s human resource department’s 2016
promotional decision as well. Staub v. Proctor Hospital, 562 U.S. 411 (2011)
(holding, “Since a supervisor is an agent of the employer, when he causes an
adverse employment action the employer causes it; and when discrimination [or
racial animus] is a motivating factor in his doing so, it is a "motivating factor in the
employer's action,...”). Hence, if Flowers were to concede her deposition testimony is
mere conclusory statements, which she does not, together with Temple’s deposition
testimony, the attestations raise several “questions and/or issue of facts.

27

• Other Evidence in The Record
In its blanket affirmance of the District Court’s summary judgement decision,
the Second Circuit construed in light favorable to Eversource or did not construe at
all other evidence in the record Flowers proffered to show the pretext of
Eversource’s non-discriminatory and non-retaliatory statements for its adverse
actions taken against her.
For example, what should have been construed as clear and convincing
evidence of a concealment of material facts in the EEOC affidavits and Eversource’s
illegal “cover-up of its wrongdoing” when viewed together with, inter alia, the CIS
report, the Second Circuit instead construed false statements made in the EEOC
affidavits to defend Eversource’s non-retaliatory reason for the October 29, 2013
meeting and sanctioned the District Court’s doing of the same. Pet. App. 4a-5a,
31a-35a.
The concealment of material facts and Eversource’s cover-up of its
wrongdoing is critical evidence to showing the pretext of Eversource’s nonretaliatory reasons for the inadequate investigation and the “threat.”
First, the cover-up shows a consciousness of guilt. Second, the cover-up
establishes the “but-for-cause” the Court held in University of Texas S. W Med v.
Nassar that is necessary to prove the causation of the retaliatory threat and
inadequate internal investigation. “Title VII retaliation claims must be proved
according to traditional principles of but-for causation, not the lessened causation

28

test stated in §2000e—2(m)”). University of Texas S. W. Med. 570 U.S. 338 (2013). To
wit, “but-for” the CIS report’s implied probability of Temple’s culpability in the
email “spoofing7’ allegation, Nadeau would not have threatened Flowers on October
29, 2013 with harassment charges if she continued communications with Ciurylo
regarding the email “spoofing” incident. Nor would Nadeau prematurely have
ended the internal investigation which included the email “spoofing” incident but
for the CIS report.
In Reeves the Court stated,
Proof that the defendant's explanation is unworthy of credence is simply one
form of circumstantial evidence that is probative..... it may be quite
persuasive. In appropriate circumstances, the trier of fact can reasonably
infer from the falsity of the explanation that the employer is dissembling to
cover up a discriminatory purpose. Reeves, supra at 134
The EEOC affidavits also establishes the third and fourth prong of Flowers’
prima facie case for the retaliatory threat. Pet. App. 65a-73a.
First, the fourth prong of the prima facie case (causal connection to the
internal complaint) is shown in the following statements in Nadeau’s EEOC
affidavit^
On August 15, 2013, Patricia Flowers filed a complaint through the
Company's compliance hotline, the BEACON Line.... I...reached out to Bob
Ciurylo, the Manager in the Company's IT Security Department, described
Ms. Flowers ' claims of sabotaging her work and emails, and asked how
this issue could be investigated. He
indicated that she would need to
contact his group with specifics....
Ms. Flowers spent a significant amount of time talking about the email that
had been sent to Duong Le on May 23, 2013.

29

Second, the third prong of Flowers’ retaliation claim, the materially adverse
action was established when the representative of Eversource’s human resource
department, the formal gateway for an employee to file complaints of
discrimination, threatened Flowers with harassment charges while Flowers was
engaged in and under protective activity. The Court held in Burlington N & Sir Co.
v. White
[a] ‘materially’ adverse action is one that ‘well’ might have dissuaded a
reasonable worker from making or supporting a charge of discrimination.”
[t]he anti-retaliation provision seeks to prevent employer interference with
‘unfettered access’ to Title VTI's remedial mechanisms.Ccitations omitted)....
It does so by prohibiting employer actions that are likely ‘to deter victims of
discrimination from complaining to the EEOC,’ the courts, and their
employers”) Burlington, 548 U.S. 53 (2006) (emp. added).

To be threatened with harassment charges by Eversource’s employee
relations department with no support from the Lead Human Resource Business
partner, the liaison between employees and the company, well dissuaded Flowers
from approaching Eversource’s human resource department again in 2016 when it
suspiciously rejected her application for a promotion to the Senior Analyst position
on the eve Flowers was to be deposed.
As a further matter of an adverse action, Nadeau’s threat led to the
inadequate internal investigation. If Flowers’ internal investigation had of been
conducted as what Black’s Law Dictionary defines "[as] an activity of trying to find
out the truth [about something ..." [or as] "an authoritative inquiry into certain
fact," [emp. added] the internal investigation would have uncovered disparate

30

treatment, excessive scrutiny and would have provided Flowers a fair opportunity
to rebut the employees who were interviewed. Instead, Nadeau conducted an
inadequate and bias investigation resulting in Flowers being denied the same
privilege and benefits of promotion afforded her similarly situated co-workers. The
Second Circuit held in Sassaman v. Gamache, “[t]he failure of an employer to
conduct an adequate investigation.... can constitute evidence in support of a Title
VII plaintiffs allegations.”). Sassaman, 566 F. 3d 315,(2nd Circuit 2009).
Since the Second Circuit dismissed Flowers’ disparate treatment claim for
consideration in its review, it ignored evidence in affidavits submitted by Basler
(Temple’s supervisor from 2010 2014) that shows Flowers was similarly situated to
her Caucasian co-workers to whom she compared herself in her disparate treatment
claim. The Court held in McDonnell Douglas v. Green, evidence relevant to
showing the pretext of an Employer’s non-discriminatory explanation is how an
employer’ treated a “white” person in similarly situated conditions. McDonnell
Douglas Corp. 411 US 804 (1973) (holding, “relevant to such a showing [of pretext]
would be evidence that white employees involved in acts... of comparable
seriousness ... were nevertheless retained or rehired [or promoted]”).
In addition, while the District Court dismissed as incomprehensible Flowers’
CATSWeb evidence showing the severity of her Caucasian co-workers’ errors,
Flowers summarized the evidence in the documents in her Appellant Brief to make
it comprehensible on appeal. The Second Circuit disregarded this evidence as well
in its review.

31

B. The Second Circuit, as a Matter of Law, Violates Rule 56 (A) of the Federal
Rules of Civil Procedure
The Second Circuit’s Decision as, a matter of law, violated the ultimate rule
of summary judgement jurisprudence and sanctioned the District Court’s violation
of the same. Fed. R. Civ. P. 56(A) specifically states, “[t]he court shall grant
summary judgment if the movant shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment as a matter of law.”
In Adickes v. S.H. Kress & Co. the Court held, “[t]he party seeking summary
judgement has the burden to demonstrate that no genuine issue of material fact
exists.” Adickes 398 U.S. 144, 157 (1970). In Anderson the Court reiterates, “[t]he
movant has the burden of showing that there is no genuine issue of fact.” Anderson,
supra at 256.
Eversource has not met this burden.
In Anderson, the Court held, “Summary judgment will not lie if the dispute
about a material fact is "genuine," that is, if the evidence is such that a reasonable
jury could return a verdict for the nonmoving part.” Anderson supra,, at 248. The
Second Circuit’s decision should not lie in this instant case.
C. The Second Circuit Declines Permission to Amend Complaint
The Second Circuit declined to grant Flowers’ permission to amend her
pleadings to add her assertion that Eversource retaliated against her in its 2016
promotional decision. Pet. App. 6a at fn.l. This adverse action grew out of Flowers

32

complaint filed with the EEOC in May of 2014. The Second Circuit based its
reasoning on Flowers made this request in her Appellant Reply Brief and as a rule
requests not made in the Opening Brief are waived. Pet App. 13a at fn.l. Flowers’
respects this circuit rule. However, the Court held in Foman v. Davis
Rule 15(a) declares that leave to amend "shall be freely given when justice so
requires",' this mandate is to be heeded. If the underlying facts or
circumstances relied upon by a plaintiff may be a proper subject of relief,
[s]he ought to be afforded an opportunity to test h[er] claim on the merits.
Foman v. Davis. 371 U.S.
Justice so requires.
VII)

Conclusion
It is Flowers’ prayer that justice will prevail in this instant case. That is, that

the Court will grant this petition and summarily reverse or vacate the Second
Circuit’s decision as the Court deems appropriate.

Respectfully Submitted,

s/s Patricia A. Flowers
76 Cambridge Street
West Hartford, CT 06110

